Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 LOUISIANA MADE INCORRECT
MEDICAID ELECTRONIC HEALTH
RECORD INCENTIVE PAYMENTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-06-12-00041
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Louisiana made incorrect Medicaid electronic health record incentive payments totaling
 $4.4 million. Incorrect payments included both overpayments and underpayments, for a
 net overpayment of $1.8 million.

WHY WE DID THIS REVIEW

To improve the quality and value of American health care, the Federal Government promotes the
use of certified electronic health record (EHR) technology by health care professionals
(professionals) and hospitals (collectively, “providers”). As an incentive for using EHRs, the
Federal Government is making payments to providers that attest to the “meaningful use” of
EHRs. The Congressional Budget Office estimates that from 2011 through 2019, spending on
the Medicare and Medicaid EHR incentive programs will total $30 billion; the Medicaid EHR
incentive program will account for more than a third of that amount, or about $12.4 billion.

The Government Accountability Office has identified improper incentive payments as the
primary risk to the EHR incentive programs. These programs may be at greater risk of improper
payments than other programs because they are new and have complex requirements. Other U.S.
Department of Health and Human Services, Office of Inspector General, reports describe the
obstacles that the Centers for Medicare & Medicaid Services (CMS) and States face overseeing
the Medicare and Medicaid EHR incentive programs. The obstacles leave the programs
vulnerable to paying incentive payments to providers that do not fully meet requirements. The
Louisiana Department of Health & Hospitals (State agency) was one of the first State agencies to
pay incentive payments, making approximately $93 million in Medicaid EHR incentive program
payments during calendar year (CY) 2011.

The objective of this review was to determine whether the State agency made Medicaid EHR
incentive program payments in accordance with Federal and State requirements.

BACKGROUND

The Health Information Technology for Economic and Clinical Health Act (HITECH Act),
enacted as part of the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5,
established Medicare and Medicaid EHR incentive programs to promote the adoption of EHRs.
Under the HITECH Act, State Medicaid programs have the option of receiving from the Federal
Government 100 percent of their expenditures for incentive payments to certain providers. The
State agency administers the Medicaid program and monitors and pays EHR incentive payments.

To receive an incentive payment, eligible providers attest that they meet program requirements
by self-reporting data using the CMS National Level Repository (NLR). The NLR is a provider
registration and verification system that contains information on providers participating in the
Medicaid and Medicare EHR incentive programs. To be eligible for the Medicaid EHR
incentive program, providers must meet Medicaid patient-volume requirements. In general,
patient volume is calculated by dividing the provider’s total Medicaid patient encounters by the



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)      i
provider’s total patient encounters. For hospitals, patient encounters are defined as discharges,
not days spent in the hospital (bed-days).

The amount of an incentive payment depends on the type of provider. Hospitals may receive
annual incentive payments that are based on a formula that consists of two main components—
the overall EHR amount and the Medicaid share. Professionals receive a fixed amount of
$21,250 in the first year and $8,500 in subsequent years; the total may not exceed $63,750 over a
6-year period.

HOW WE CONDUCTED THIS REVIEW

From January 1 through December 31, 2011, the State agency paid $93,394,502 for Medicaid
EHR incentive payments. We (1) reconciled both professional and hospital incentive payments
reported on the State’s Form CMS-64, Quarterly Medicaid Assistance Expenditures for the
Medical Assistance Program (CMS-64 report), with the NLR and (2) selected for further review
all of the 25 hospitals that received an incentive payment totaling $1 million or more. The State
agency paid the 25 hospitals $53,180,619, which is 57 percent of the total paid during CY 2011
for first-year payments. In addition, the State agency made second-year payments to 15 of the 25
hospitals, totaling $14,512,894 as of June 30, 2013.

WHAT WE FOUND

The State agency did not always pay EHR incentive payments in accordance with Federal and
State requirements. The State agency made incorrect EHR incentive payments to 20 hospitals
totaling $4,431,518. Specifically, the State agency overpaid 13 hospitals a total of $3,090,946
and underpaid 6 hospitals a total of $1,340,572 for a net overpayment of $1,750,374. The State
agency made an incorrect payment to an additional hospital; however, we confirmed that the
payment had been recovered during our audit. Additionally, the State agency did not ensure that
hospitals correctly calculated patient volume for 24 hospitals, made incorrect incentive payments
to 13 professionals for a total overpayment of $3,250, and did not report 13 professional
incentive payments to the NLR.

These errors occurred because (1) State agency instructions on the hospital incentive payment
and patient-volume calculations were incorrect or lacked needed information, (2) the hospital
calculation worksheet had an error in the formula used to calculate the discharge-related
amounts, (3) State agency personnel did not use the correct cost report periods or review
supporting documentation for the numbers provided in the cost reports that were used to
calculate incentive payments, (4) State agency personnel made clerical errors, (5) the State
agency did not have system edits in place to prevent overpayments to professionals, and (6) the
State agency did not reconcile the CMS-64 report with the NLR.




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)       ii
WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund to the Federal government $1,750,374 in net overpayments made to the 20
        hospitals, adjust the 20 hospitals’ remaining incentive payments to account for the
        incorrect calculations, review the calculations for the hospitals not included in the 25 we
        reviewed to determine whether payment adjustments are needed, and refund any
        overpayments identified;

    •   modify the hospital calculation worksheet to state that inpatient nonacute-care services
        should be excluded from the discharge lines of the incentive payment calculation, correct
        the formula to calculate the discharge-related amounts, ensure that the correct cost report
        periods are used, and review supporting documentation for the numbers provided in the
        cost reports;

    •   modify the patient-volume worksheet to clarify that inpatient discharges—not bed-
        days—should be used in the patient-volume calculation and review the patient-volume
        calculation for the other hospitals not included in the 25 we reviewed to determine
        whether they met the patient-volume requirement and refund any overpayments identified
        if the patient-volume requirement is not met;

    •   refund to the Federal government $3,250 in overpayments made to the 13 professionals,
        implement system edits to prevent payments that exceed threshold amounts, and ensure
        that personnel are knowledgeable about the EHR program requirements; and

    •   work with CMS to ensure that the 13 professional incentive payments not posted to the
        NLR are posted and establish a policy to reconcile the CMS-64 report to the NLR each
        quarter.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that have been implemented.




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)     iii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

           Why We Did This Review ................................................................................................ 1

           Objective ........................................................................................................................... 1

           Background ....................................................................................................................... 1
                 Health Information Technology for Economic and Clinical Health Act .............. 1
                 Medicaid Program: Administration and Federal Reimbursement ....................... 2
                 National Level Repository .................................................................................... 2
                 Incentive Payment Eligibility Requirements ........................................................ 2
                 Provider Payments ................................................................................................ 3

           How We Conducted This Review..................................................................................... 5

FINDINGS...... .............................................................................................................................. 6

           The State Agency Made Incorrect Hospital Incentive Payments ..................................... 6

           The State Agency Did Not Ensure Hospitals Correctly Calculated
            Medicaid Patient Volume .............................................................................................. 8

           The State Agency Made Incorrect Professional Incentive Payments ............................... 8

           The State Agency Did Not Always Report Incentive Payments to
            The National Level Repository ...................................................................................... 9

RECOMMENDATIONS .............................................................................................................. 9

STATE AGENCY COMMENTS ............................................................................................... 10

APPENDIXES

           A: Audit Scope and Methodology ................................................................................. 11

           B: State Agency Comments ........................................................................................... 13




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                                                        iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

To improve the quality and value of American health care, the Federal Government promotes the
use of certified electronic health record (EHR) technology by health care professionals
(professionals) and hospitals (collectively, “providers”). As an incentive for using EHRs, the
Federal Government is making payments to providers that attest to the “meaningful use” of
EHRs. 1 The Congressional Budget Office estimates that from 2011 through 2019, spending on
the Medicare and Medicaid EHR incentive programs will total $30 billion; the Medicaid EHR
incentive program will account for more than a third of that amount, or about $12.4 billion.

The Government Accountability Office has identified improper incentive payments as the
primary risk to the EHR incentive programs. 2 These programs may be at greater risk of
improper payments than other programs because they are new and have complex requirements.
Other U.S. Department of Health and Human Services, Office of Inspector General, reports
describe the obstacles that the Centers for Medicare & Medicaid Services (CMS) and States face
overseeing the Medicare and Medicaid EHR incentive programs. 3 The obstacles leave the
programs vulnerable to paying incentive payments to providers that do not fully meet
requirements. The Louisiana Department of Health & Hospitals (State agency) was one of the
first State agencies to pay incentive payments, making approximately $93 million in Medicaid
EHR incentive program payments during calendar year (CY) 2011.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid EHR incentive
program payments in accordance with Federal and State requirements.

BACKGROUND

Health Information Technology for Economic and Clinical Health Act

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5. Title XIII of Division A and Title IV of Division B of the
Recovery Act are cited together as the Health Information Technology for Economic and
Clinical Health Act (HITECH Act). The HITECH Act established EHR incentive programs for
both Medicare and Medicaid to promote the adoption of EHRs.

1
  To meaningfully use certified EHRs, providers must use numerous functions defined in Federal regulations,
including functions meant to improve health care quality and efficiency, such as computerized provider order entry,
electronic prescribing, and the exchange of key clinical information.
2
 First Year of CMS’s Incentive Programs Shows Opportunities to Improve Processes to Verify Providers Met
Requirements (GAO-12-481), published April 2012.
3
 Early Review of States’ Planned Medicaid Electronic Health Record Incentive Program Oversight (OEI-05-10-
00080), published July 2011 and Early Assessment Finds That CMS Faces Obstacles in Overseeing the Medicare
EHR Incentive Program (OEI-05-11-00250), published November 2012.


Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                         1
Under the HITECH Act § 4201, State Medicaid programs have the option of receiving from the
Federal Government Federal financial participation for expenditures for incentive payments to
certain Medicare and Medicaid providers to adopt, implement, upgrade, and meaningfully use
certified EHR technology. The Federal Government pays 100 percent of Medicaid incentive
payments (42 CFR § 495.320).

Medicaid Program: Administration and Federal Reimbursement

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Louisiana, the State agency administers the program.

States use the standard Form CMS-64, Quarterly Medicaid Assistance Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for each
quarter, and CMS uses it to reimburse States for the Federal share of Medicaid expenditures.
The amounts reported on the CMS-64 report and its attachments must represent actual
expenditures and be supported by documentation. States claim EHR incentive payments on lines
24E and 24F on the CMS-64 report.

National Level Repository

The National Level Repository (NLR) is a CMS Web-based provider registration and
verification system that contains information on providers participating in the Medicare and
Medicaid EHR incentive programs. The NLR is the designated system of records that checks for
duplicate payments and maintains the incentive payment history files.

Incentive Payment Eligibility Requirements

To receive an incentive payment, eligible providers attest that they meet program requirements
by self-reporting data using the NLR. 4 To be eligible for the Medicaid EHR incentive program,
providers must meet Medicaid patient-volume requirements (42 CFR § 495.304(c)). In general,
patient volume is calculated by dividing the provider’s total Medicaid patient encounters by the
provider’s total patient encounters. 5 See Table 1 for program eligibility requirements for
providers.


4
 Eligible professionals may be physicians, dentists, certified nurse-midwives, nurse practitioners, or physician
assistants practicing in a Federally Qualified Health Center or a Rural Health Clinic that is led by a physician
assistant (42 CFR § 495.304(b)). Eligible hospitals may be acute-care hospitals or children’s hospitals (42 CFR
§§ 495.304(a)(2) and (a)(3)); acute-care hospitals include critical access hospitals or cancer hospitals (75 Fed. Reg.
44314, 44484 (July 28, 2010)).
5
 There are multiple definitions of “encounter.” Generally stated, a patient encounter with a professional is any
one day for which Medicaid paid for all or part of a service or Medicaid paid the copay, cost-sharing, or premium
for the service (42 CFR § 495.306(e)(1)). A hospital encounter is either the total services performed during an


Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                            2
                   Table 1: Eligibility Requirements for Professionals and Hospitals

                        Eligibility Requirements                                 Professional         Hospital
     Provider is a permissible provider type that is licensed to                      x                  x
     practice in the State.
     Provider participates in the State Medicaid program.                               x                  x

     Provider is not excluded, sanctioned, or otherwise deemed
     ineligible to receive payments from the State or Federal                           x                  x
     Government.
     Professional is not hospital-based. 6                                              x

     Hospital has an average length of stay of 25 days or less.                                            x

     Provider has adopted, implemented, upgraded, or                                    x                  x
     meaningfully used certified EHR technology. 7
     Provider meets Medicaid patient-volume requirements. 8                             x                  x


Provider Payments

The amount of an incentive payment varies depending on the type of provider.

Eligible Hospital Payments
Hospital incentive payments are based on a one-time calculation of a total incentive payment,
which is distributed by States over a minimum of 3 years and a maximum of 6 years. 9 The total
incentive payment calculation consists of two main components—the overall EHR amount and
the Medicaid share.



inpatient stay or services performed in an emergency department on any one day for which Medicaid paid for all or
part of the services or paid the copay, cost-sharing, or premium for the services (42 CFR § 495.306(e)(2)).
6
 Professionals may not have performed 90 percent or more of their services in the prior year in a hospital inpatient
or emergency room setting (42 CFR § 495.304(c)).
7
    42 CFR §§ 495.314(a)(1)(i) or (ii).
8
 Professionals, with the exception of pediatricians, must have a Medicaid patient volume of at least 30 percent;
pediatricians must have a Medicaid patient volume of at least 20 percent (42 CFR §§ 495.304(c)(1) and (c)(2)).
Hospitals must have a Medicaid patient volume of at least 10 percent, except for children’s hospitals, which do not
have a patient-volume requirement (42 CFR §§ 495.304(e)(1) and (e)(2)).
9
  No single year may account for more than 50 percent of the total incentive payment, and no 2 years may account
for more than 90 percent of the total incentive payment (42 CFR §§ 495.310(f)(3) and (f)(4)). The State agency
elected for incentive payments to be made over a 4-year period with the first payment being 50 percent of the total;
the second payment, 30 percent; and the two remaining payments, 10 percent.



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                          3
Generally stated, the overall EHR amount is an estimated dollar amount based on a total number
of inpatient acute-care discharges over a theoretical 4-year period. 10 The overall EHR amount
consists of two components—an initial amount and a transition factor. Once the initial amount is
multiplied by the transition factors, all 4 years are totaled to determine the overall EHR amount.
Table 2 provides three examples of the overall EHR amount calculation.

                    Table 2: Overall Electronic Health Record Amount Calculation

                                Hospitals With            Hospitals With 1,150            Hospitals With More
                                1,149 or Fewer               Through 23,000                   Than 23,000
                              Discharges During           Discharges During the            Discharges During
Type of Hospital              the Payment Year                Payment Year                 the Payment Year
Base Amount                        $2 million                   $2 million                     $2 million
Plus Discharge-
Related Amount
(adjusted in years 2
through 4 that are                                          $200 multiplied by
based on the                                               (n - 1,149) where n is
average annual                                                 the number of                $200 multiplied by
growth rate)                           $0.00                     discharges                  (23,000 - 1,149)
                                                          Between $2 million and
                                                           $6,370,200 depending
Equals Total                                                 on the number of                Limited by law to
Initial Amount                     $2 million                    discharges                     $6,370,200
                                  Year 1 – 1.00                 Year 1 – 1.00                  Year 1 – 1.00
                                  Year 2 – 0.75                 Year 2 – 0.75                  Year 2 – 0.75
Multiplied by                     Year 3 – 0.50                 Year 3 – 0.50                  Year 3 – 0.50
Transition Factor                 Year 4 – 0.25                 Year 4 – 0.25                  Year 4 – 0.25
Overall EHR
Amount                         Sum of all 4 years            Sum of all 4 years             Sum of all 4 years

The Medicaid share is calculated as follows:

       •   The numerator is the sum of the estimated Medicaid inpatient acute-care bed-days 11 for
           the current year and the estimated number of Medicaid managed care inpatient acute-care
           bed-days for the current year (42 CFR § 495.310(g)(2)(i)).

       •   The denominator is the product of the estimated total number of inpatient acute-care
           bed-days for the eligible hospital during the current year multiplied by the noncharity

10
  It is a theoretical 4-year period because the overall EHR amount is not determined annually; rather, it is calculated
once, on the basis of how much a hospital might be paid over 4 years. An average annual growth rate (calculated by
averaging the annual percentage change in discharges over the most recent 3 years) is applied to the first payment
year’s number of discharges to calculate the estimated total discharges in years 2 through 4 (42 CFR § 495.310(g)).
11
     A bed-day is 1 day that one Medicaid beneficiary spends in the hospital.



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                         4
           percentage. The noncharity percentage is the estimated total amount of the eligible
           hospital’s charges during that period, not including any charges that are attributable to
           charity care, divided by the estimated total amount of the hospital’s charges during that
           period (42 CFR § 495.310(g)(2)(ii)).

The total incentive payment is the overall EHR amount multiplied by the Medicaid share. The
total incentive payment is then distributed over several years. (See footnote 9.) It is possible
that a hospital may not receive the entire total incentive payment. Each year, a hospital must
re-attest and meet that year’s program requirements. The hospital may not qualify for the future
years’ payments or could elect to end its participation in the EHR incentive program. In
addition, the amount may change because of adjustments to supporting numbers used in the
calculations.

Hospitals may receive incentive payments from both Medicare and Medicaid within the same
year; however, they may not receive a Medicaid incentive payment from more than one State
(42 CFR §§ 495.310(e) and (j)).

Eligible Professional Payments

Professionals receive a fixed amount of $21,250 in the first year and $8,500 in subsequent years;
the total may not exceed $63,750 over a 6-year period. 12 Incentive payments for pediatricians
who meet the 20-percent Medicaid patient-volume threshold but fall short of the 30-percent
Medicaid patient-volume threshold are reduced to two-thirds of the incentive payment. 13 Thus,
some pediatricians may receive only $14,167 in the first year and $5,667 in subsequent years, for
a maximum of $42,500 over a 6-year period. 14

Professionals may not receive EHR incentive payments from both Medicare and Medicaid in the
same year and may not receive a payment from more than one State. After a professional
qualifies for an EHR incentive payment and before 2015, the professional may switch one time
between programs.

HOW WE CONDUCTED THIS REVIEW

From January 1 through December 31, 2011, the State agency paid $93,394,502 for Medicaid
EHR incentive payments. We (1) reconciled both professional and hospital incentive payments
reported on the State’s CMS-64 report with the NLR and (2) selected for further review all of the
25 hospitals that received an incentive payment totaling $1 million or more. The State agency
paid the 25 hospitals $53,180,619, which is 57 percent of the total paid during CY 2011 for first-
year payments. In addition, the State agency made second-year payments to 15 of the 25
hospitals, totaling $14,512,894 as of June 30, 2013.

12
     42 CFR §§ 495.310(a)(1)(i), (a)(2)(i), and (a)(3).
13
     42 CFR §§ 495.310(a)(4)(i), (a)(4)(ii), and (b).
14
     42 CFR § 495.310(a)(4)(iii).



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)          5
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

The State agency did not always pay EHR incentive payments in accordance with Federal and
State requirements. Specifically, the State agency:

    •   made incorrect incentive payments to 20 hospitals for a net overpayment of $1,750,374

    •   did not ensure hospitals correctly calculated patient volume for 24 hospitals,

    •   made incorrect incentive payments to 13 professionals for a total overpayment of $3,250,
        and

    •   did not report 13 professional incentive payments to the NLR.

These errors occurred because (1) State agency instructions on the hospital incentive payment
and patient-volume calculations were incorrect or lacked needed information, (2) the hospital
calculation worksheet had an error in the formula to calculate the discharge-related amounts,
(3) State agency personnel did not use the correct cost report periods or review supporting
documentation for the numbers provided in the cost reports that were used to calculate incentive
payments, (4) State agency personnel made clerical errors, (5) the State agency did not have
system edits in place to prevent overpayments to professionals, and (6) the State agency did not
reconcile the CMS-64 report with the NLR.

THE STATE AGENCY MADE INCORRECT HOSPITAL INCENTIVE PAYMENTS

The overall EHR incentive payment amount for a hospital is based on various discharge-related
information (75 Fed. Reg. 44314, 44450 (July 28, 2010)). To calculate incentive payments, a
hospital uses the discharge-related amount for the 12-month period ending in the Federal fiscal
year before the fiscal year that serves as the hospital’s first payment year. For the 1,150th
through the 23,000th discharge, the discharge-related amount is $200. Any discharge greater
than the 23,000th discharge is not included in the calculation (42 CFR § 495.310(g)(1)(i)(B)).

Additionally, Federal regulations restrict discharges and inpatient bed-days to those from the
acute-care portion of a hospital and further explain that an eligible hospital, for purposes of the
incentive payment provision, does not include a psychiatric or rehabilitation unit of the hospital,
which are distinct parts of the hospital (75 Fed. Reg. 44314, 44450 and 44497 (July 28, 2010)).




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)         6
Furthermore, CMS guidance states that nursery, rehabilitation, psychiatric, and skilled nursing
facility (SNF) days and discharges (inpatient nonacute-care services) cannot be included as
inpatient acute-care services in the calculation of hospital incentive payments. 15

Of the 25 hospital incentive payment calculations reviewed, 20, or 80 percent, did not comply
with regulations, guidance, or both. Some calculations had multiple deficiencies. Specifically,
the calculations included:

     •   nursery services (13 hospitals);

     •   clerical errors, such as using the wrong line on the cost report (5 hospitals);

     •   incorrect cost report periods (4 hospitals);

     •   rehabilitation services (4 hospitals);

     •   psychiatric services (3 hospitals);

     •   incorrect discharge-related amounts (3 hospitals); and

     •   SNF services (1 hospital).

The calculations for two hospitals did not include neonatal intensive care unit discharges, which
should have been included.

The State agency initially provided an incentive payment calculation worksheet to hospitals that
did not include any instructions to exclude inpatient nonacute-care services. A revised
worksheet included instructions on excluding inpatient nonacute-care services from some line
items; however, the instructions should have applied to all line items. Also, the State agency did
not ensure that the hospitals had removed the inpatient nonacute-care services from all of the line
items of the worksheet. Furthermore, the incentive payment calculation worksheet had an error
in the formula that calculated the discharge-related amounts. The formula included $200 for
discharges greater than the 23,000th discharge.

In addition, the State agency did not use the correct cost report period for hospitals with a
hospital fiscal year ending in December. The State agency used cost reports ending December
2010, which ended during the hospital’s first payment year, to calculate the incentive payments.
The State agency should have used December 2009 cost reports, which ended in the Federal
fiscal year before the hospital’s first payment year. Also, the State agency did not review
supporting documentation for the numbers provided in the cost reports in the incentive payment
calculation. Such a review would have shown that the incorrect cost report periods were used,
and the supporting documentation would have shown when hospitals included inpatient
nonacute-care services.
15
  CMS Frequently Asked Questions: https://questions.cms.gov/ FAQs 2991, 3213, 3261, and 3315; last accessed
on April 1, 2014.



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                 7
As a result, the State agency made incorrect incentive payments totaling $4,431,518.
Specifically, the State agency overpaid 13 hospitals a total of $3,090,946 and underpaid 6
hospitals a total of $1,340,572, for a net overpayment of $1,750,374. The State agency made an
incorrect payment to an additional hospital; however, we confirmed that the payment had been
recovered during our audit. Because the hospital calculation is computed once and then paid out
over 4 years, future payments will also be incorrect and will need to be adjusted.

THE STATE AGENCY DID NOT ENSURE HOSPITALS CORRECTLY CALCULATED
MEDICAID PATIENT VOLUME

For purposes of calculating a hospital’s patient volume, the hospital must divide the total
Medicaid encounters in any representative, continuous 90-day period in the preceding fiscal year
by the total encounters in the same 90-day period. 16 A hospital encounter is either the services
provided to an individual per inpatient discharge or services provided in an emergency
department on any one day for which Medicaid paid for all or part of the services or paid the
copay, cost-sharing, or premium for the services (75 Fed. Reg. 44314, 44488 (July 28, 2010)).

The State agency did not ensure that hospitals correctly calculated Medicaid patient volume.
Specifically, of the 25 hospital patient-volume calculations reviewed, 24 did not comply with
regulations. 17 This was because the calculations included bed-days rather than discharges (22
hospitals) and incorrect numbers (2 hospitals).

Although the calculations were in error, each hospital met the 10-percent patient-volume
requirement after we applied the correct methodology. For example, the patient-volume
percentage at one hospital changed from 23 to 19 percent.

The State agency provided incorrect instructions regarding the patient-volume calculation. State
officials believed that encounters were defined as inpatient bed-days, not discharges. The
incorrect numbers were caused by clerical errors. Although the 25 hospitals met the 10-percent
requirement, it is possible that if the methodology had been applied correctly at other hospitals,
some might not have qualified for incentive payments.

THE STATE AGENCY MADE INCORRECT PROFESSIONAL INCENTIVE
PAYMENTS

A professional’s first payment is limited to 85 percent of the $25,000 threshold, or $21,250. 18

The State agency made incorrect initial incentive payments of $21,500 to 13 professionals, or
$250 more than the threshold amount. A State official explained that the error occurred because
personnel inputting the payment information were new and unaware of the threshold. In

16
     42 CFR § 495.306(c)(2).
17
     One of the 25 was a children’s hospital, which is not required to meet a minimum Medicaid patient volume.
18
     42 CFR § 495.310(a)(1).



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                    8
addition, no system edits were in place to prevent the overpayment. As a result, the State agency
overpaid professionals a total of $3,250.

THE STATE AGENCY DID NOT ALWAYS REPORT INCENTIVE PAYMENTS TO
THE NATIONAL LEVEL REPOSITORY

States participating in the Medicaid EHR incentive program are responsible for transmitting
payment data to CMS’s NLR so that CMS can ensure that providers do not receive payments
from more than one State (75 Fed. Reg. 44314, 44501 (July 28, 2010)).

The State agency did not report to the NLR $276,250 in incentive payments made to 13
professionals. State agency officials believed that the 13 payments had been reported to the NLR
because the State agency had a log noting that the files had been transmitted to the NLR.
However, the State agency was unaware that the files had not been transferred successfully. The
State agency did not catch the error because it did not reconcile the CMS-64 report to the NLR.
As a result, the NLR information was not complete, and the providers could have potentially
been paid by another State.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal government $1,750,374 in net overpayments made to the 20
        hospitals, adjust the 20 hospitals’ remaining incentive payments to account for the
        incorrect calculations, review the calculations for the hospitals not included in the 25 we
        reviewed to determine whether payment adjustments are needed, and refund any
        overpayments identified;

    •   modify the hospital calculation worksheet to state that inpatient nonacute-care services
        should be excluded from the discharge lines of the incentive payment calculation, correct
        the formula to calculate the discharge-related amounts, ensure that the correct cost report
        periods are used, and review supporting documentation for the numbers provided in the
        cost reports;

    •   modify the patient-volume worksheet to clarify that inpatient discharges—not bed-
        days—should be used in the patient-volume calculation and review the patient-volume
        calculation for the other hospitals not included in the 25 we reviewed to determine
        whether they met the patient-volume requirement and refund any overpayments identified
        if the patient-volume requirement is not met;

    •   refund to the Federal government $3,250 in overpayments made to the 13 professionals,
        implement system edits to prevent payments that exceed threshold amounts, and ensure
        that personnel are knowledgeable about the EHR program requirements; and




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)         9
    •   work with CMS to ensure that the 13 professional incentive payments not posted to the
        NLR are posted and establish a policy to reconcile the CMS-64 report to the NLR each
        quarter.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that have been implemented. The State agency comments are
included in their entirety as Appendix B.




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)   10
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

From January 1 through December 31, 2011, the State agency paid $93,394,502 for Medicaid
EHR incentive payments. We (1) reconciled both professional and hospital incentive payments
reported on the State’s CMS-64 report to the NLR and (2) selected for further review all of the
25 hospitals that received an incentive payment totaling $1 million or more. The State agency
paid the 25 hospitals $53,180,619, which is 57 percent of the total paid during CY 2011 for first-
year payments. In addition, the State agency made second-year payments to 15 of the 25
hospitals, totaling $14,512,894 as of June 30, 2013.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective.

We performed our fieldwork at the State agency’s office in Baton Rouge, Louisiana, and at
hospitals throughout Louisiana.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance;

    •   held discussions with CMS officials to gain an understanding of the Medicaid EHR
        incentive program;

    •   held discussions with State agency officials to gain an understanding of State policies and
        controls as they relate to the Medicaid EHR incentive program;

    •   selected for further review (1) all of the 25 hospitals that were paid an incentive payment
        of $1 million or more during CY 2011; and (2) all payments made to the 25 hospitals
        from January 1, 2012, through June 30, 2013;

    •   reviewed the State agency’s supporting documentation related to the 25 selected
        hospitals;

    •   reviewed and reconciled the appropriate lines from the CMS-64 report to supporting
        documentation and the NLR;

    •   visited the selected hospitals and verified the supporting documentation;

    •   verified that the selected hospitals met eligibility requirements;

    •   determined whether the selected hospital patient-volume calculations were correct;



Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)    11
    •   determined whether the selected hospital incentive-payment calculations were correct and
        adequately supported; and

    •   discussed the results of our review and provided our recalculations to State officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)     12
                                APPENDIX B: STATE AGENCY COMMENTS 



      Bobby Jindal                                                                                                                    Kathy Kliebert
        CO\'EIL'\!OR                                                                                                                    SECRET.\R\'




                                                     ~tatt              of 'I.out•tana
                                                D epartment o f Health and Hospitals 

                                                       Bureau o f H ealth Sen' ices Financing 


             July 17, 2014


             Patricia Wheeler, Regional Inspector General for Audit Services 

             Office o f Inspector General 

             Office of Audit Services, Region VI 

             1100 Commerce Street, Room 632 

             Da llas, TX 75242 


             Dear Ms. W heeler:

            RE: Report# A-06-12-00041

            Please find enclosed Louisiana Medicaid' s response to recommendations offered by the Office o f
            Inspector General (O IG) in the above-referenced report regarding the Medicaid Electronic Health
            Records (EHR) Incentive Program. The respo nse includes corrective actions that have been
            implemented along with our position on concurre nce for each recommendation.

            The OIG began its audit of the EHR Incentive Program in October 2011 and examined payments issued in
            2011. Louisiana Medicaid has made significant changes in its administration of the EHR Incentive
            Prog ram since the aud it began. The changes are described in det ail in the enclosed response. Changes
            i nclude the following:

                 •     Web-based applicat ion for provider attestation and state program administration
                       Adoptio n of robust pre-payment and post -payment review procedures for Eligible Hospitals
                 •     Reconciliation o f attestatio n/ payment data

            Louisiana Medicaid agrees with the OIG findings. The recommendations serve as confirmation that t he
            changes already implemented were appropriate. If you need cla rification o r have questions, please
            cont act Rosalyn Christopher, Medicaid Program Manager, at 225-342-8746.

            Sincerely,




            J. Ruth Kennedy
            Medicaid Director

            Enclosure



                               Bienv ille Ouikling • 628 North~· Street • P.O . Box 91030 • B:uo n Rouge, Lou is iana 7082 1-9030 

                                              Phone: 888/l-t2.-6207 • F~: 22.5/ .3-'2-9508 • W\V\V..DHH.LAGOV 

                                                             '"An Eq u-;al Opponuniry Employer" 





Louisiana Made IncorrectMedicaid Electronic Health R ecord Incentive Payments (A-06-12-00041)                                                          13
                                                 louisiana Medicaid's Response
                                                  OIG Report#: A-06-12-00041

                     OIG Recommendation                    Concur             DHH Response/Corrective Action
         Refund the Federal government $1,750,373           Yes     louisiana Medicaid was advised by CMS
         in net overpayments made to the 20                         representatives that any
         hospitals, adjust the 20 hospitals' remaining              overpayments/underpayments be addressed
         incentive payments to account for the                      through adjustment of future incentive payments.
         incorrect calculations, review the calculations            The over/underpayments identified by the OIG will
         for the hospitals not included in t he 25 we               be remedied through adjustment of the hospitals'
         reviewed to determine whether payment                      subsequent incentive payments. Hospitals
         adjustments are needed, and refund any                     participate in the EHR Incentive Program for a 4­
         overpayments identified .                                  year period. louisiana Medicaid staff will make
                                                                    necessary adjustment to subsequent payments
                                                                    based on results of established pre-payment and
                                                                    post-payment review procedures.

                                                                    louisiana Medicaid has implemented robust pre-
                                                                    and post-payment review procedures that are
                                                                    effective in identifying and preventing materially
                                                                    incorrect incentive payments to hospitals.

                                                                    In March 2012, louisiana Medicaid entered into a
                                                                    contract with the audit firm Myers and Stauffer
                                                                    {MSlC) to conduct post-payment review of
                                                                    incentive payments. To avoid duplication of effort,
                                                                    louisiana Medicaid advised MSlC to exclude from
                                                                    its sample pool the 25 hospitals under audit by OIG.
                                                                    The discrepancies and errors identified by the OIG
                                                                    were identified by MSLC during analysis of hospital
                                                                    EHR Incentive Payment Applications, and Eligible
                                                                    Hospital payment data. The incorrect payments
                                                                    cited by OIG would have been identified and
                                                                    addressed through established post-payment
                                                                    review procedures. The risk-based audit strategy
                                                                    developed by MSLC was designed to select for audit
                                                                    those providers whose payment calculations
                                                                    indicate a higher risk of potential misstatement.

                                                                    As of October 2013, Louisiana Medicaid has
                                                                    implemented rigorous pre-payment review
                                                                    procedures. Instead of relying on hospital cost
                                                                    report data, Louisiana Medicaid {1) requests census
                                                                    reports from hospitals; (2) verifies reported data
                                                                    with MMIS claims data; (3) submits documents to
                                                                    MSlC fo r cursory review; and (4) considers results
                                                                    of audits. If variances exceed est ablished
                                                                    thresholds, the hospital is required to recalculate its
                                                                    aggregate payment amount.



                                                                                                                       1




Louisiana Made IncorrectMedicaid E lectronic Health Record Incentive Payments (A-06-I 2-0004 I)                               14
                                                Louisiana Medicaid's Response 

                                                 OIG Report II: A-06-12-00041 


                      OIG Recommendation                  Concur            DHH Response/Corrective Action
         Modify the hospital calculation worksheet to      Yes     Revisions have been made to the Eligible Hospita l
         state that inpatient non-acute ca re services             Payment Calculator.
         should be excluded from the discharge lines
         of the incentive payment calcu lation, correct            The pre-payment review procedures adopted by
         the formula to calculate the discharge-related            Louisiana Medicaid in October 2013 include
         amounts, ensure that the correct cost report              confirmation of cost report data and ensure that
         periods are used, and review supporting                   correct cost report periods are used.
         documentation for the numbers provided in
         the cost reports.

          Modify the patient-volume worksheet to           Yes     In May 2013, louisiana Medicaid launched its web-
         clarify that inpatient discharges- not bed-               based EHR portal. Hospitals seeking initial
         days- should be used in the pat ient-volume               payments and those returning for subsequent
         calculation and review the patient-volume                 payments are required to enter patient volume data
         calculation for the other hospitals not                   directly into the system. The system is equipped
         included in the 25 we reviewed to determine               with pop-up messages and instr uctions that
         whether they met the patient volume                       describe what type of data should be entered.
         requirement and refund any overpayments
         identified if the patient-volume requirement              Hospitals returning for payments in partici pation
         is not met.                                               years 2 - 4 undergo rigorous pre-payment review
                                                                   procedures that include review of previously
                                                                   attested data.

        Refund to the Federal government $3,250 in         Yes     The overpayment of $3,250 cited by the OIG
        overpayments made to the 13 professionals,                 involved a single payee (payments made on behalf
        implement system edits to prevent payments                 of 13 professionals). The overpayment was
        that exceed threshold amounts, and ensure                  identified by Myers and Stauffer through post-
        that personnel are knowledgeable about the                 payment review procedures. The facility was
        EHR Incentive Program requirements.                        notified of the overpayment, and arrangements are
                                                                   currently being made to recoup the funds.

                                                                   In May 2013, Louisiana Medicaid launched its web-
                                                                   based EHR portal. Since that time, an automated
                                                                   process is used to submit payment requests to the
                                                                   Medicaid fiscal intermediary, Mol ina, when an
                                                                   attestation is approved for payment. Payment
                                                                   information is transferred electronically through the
                                                                   EHR system without the use of manual Excel
                                                                   spreadsheets.




                                                                                                                   2




Louisiana Made IncorrectMedicaid E lectronic Health Record Incentive Payments (A-06-12-00041)                              15
                                                  Louisiana Medicaid's Response 

                                                   OIG Report#: A-06-12-00041 


                      OIG Recomm endation                 Concur             DH H Response/Corrective Action
         Work with CMS to ensure that the 13               Yes     In Oct ober 2013, Louisiana Medicaid began
         professional incentive payments not posted                cond ucting quarterly reconciliation of data.
         t o the NLR are posted and est ablish a policy            Payment records gener ated by the EHR system are
         t o reconcile the CMS-64 report to t he NLR               compa red to t he NLR record and data sour ces used
         each quarter.                                             to generate the CMS-64 report. If missing or
                                                                   incorrect data is discovered, steps are taken
                                                                   immediately to resolve the discrepancy.




                                                                                                                  3




Louisiana Made Incorrect Medicaid Electronic Health Record Incentive Payments (A-06-12-00041)                            16
